CERTIFICATE OF SERVICE
No. 20A150
TEXAS, ET AL.,
Applicants,
v.
COOK COUNTY, ILLINOIS, ET AL.,
Respondents.
I, Tacy F. Flint, do hereby certify that, on this ninth day of April, 2021, I
caused a copy and an electronic copy of the Opposition to Application for Leave to
Intervene and for a Stay of the Judgment Issued by the United States District
Court for the Northern District of Illinois in the foregoing case to be served by first
class mail, postage prepaid, and by email, on the following:
JUDD EDWARD STONE II
Texas Attorney General’s Office
P.O. Box 12548 (MC 059)
Austin, TX 78711-2548
(512) 936-1700
judd.stone@oag.texas.gov
Counsel for Petitioners

JESSICA M. SCHELLER
Assistant State’s Attorney
Cook County State’s Attorney’s Office
500 Richard J. Daley Center Place
Chicago, IL 60602
(312) 603-6934
jessica.scheller@cookcountyil.gov
Counsel for Respondent Cook County,
Illinois
/s/ Tacy F. Flint
TACY F. FLINT
SIDLEY AUSTIN LLP
One South Dearborn Street
Chicago, IL 60603
(312) 853-7000

